<html>
<title> - INDUSTRY PERSPECTIVES ON THE CONSUMER PRODUCT SAFETY COMMISSION</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






    INDUSTRY PERSPECTIVES ON THE CONSUMER PRODUCT SAFETY COMMISSION

=======================================================================

                                HEARING

                               BEFORE THE

           SUBCOMMITTEE ON COMMERCE, MANUFACTURING, AND TRADE

                                 OF THE

                    COMMITTEE ON ENERGY AND COMMERCE
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2016

                               __________

                           Serial No. 114-116




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]










      Printed for the use of the Committee on Energy and Commerce
                        energycommerce.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-012 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001















                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

JOE BARTON, Texas                    FRANK PALLONE, Jr., New Jersey
  Chairman Emeritus                    Ranking Member
ED WHITFIELD, Kentucky               BOBBY L. RUSH, Illinois
JOHN SHIMKUS, Illinois               ANNA G. ESHOO, California
JOSEPH R. PITTS, Pennsylvania        ELIOT L. ENGEL, New York
GREG WALDEN, Oregon                  GENE GREEN, Texas
TIM MURPHY, Pennsylvania             DIANA DeGETTE, Colorado
MICHAEL C. BURGESS, Texas            LOIS CAPPS, California
MARSHA BLACKBURN, Tennessee          MICHAEL F. DOYLE, Pennsylvania
  Vice Chairman                      JANICE D. SCHAKOWSKY, Illinois
STEVE SCALISE, Louisiana             G.K. BUTTERFIELD, North Carolina
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   KATHY CASTOR, Florida
GREGG HARPER, Mississippi            JOHN P. SARBANES, Maryland
LEONARD LANCE, New Jersey            JERRY McNERNEY, California
BRETT GUTHRIE, Kentucky              PETER WELCH, Vermont
PETE OLSON, Texas                    BEN RAY LUJAN, New Mexico
DAVID B. McKINLEY, West Virginia     PAUL TONKO, New York
MIKE POMPEO, Kansas                  JOHN A. YARMUTH, Kentucky
ADAM KINZINGER, Illinois             YVETTE D. CLARKE, New York
H. MORGAN GRIFFITH, Virginia         DAVID LOEBSACK, Iowa
GUS M. BILIRAKIS, Florida            KURT SCHRADER, Oregon
BILL JOHNSON, Ohio                   JOSEPH P. KENNEDY, III, 
BILLY LONG, Missouri                 Massachusetts
RENEE L. ELLMERS, North Carolina     TONY CARDENAS, California
LARRY BUCSHON, Indiana
BILL FLORES, Texas
SUSAN W. BROOKS, Indiana
MARKWAYNE MULLIN, Oklahoma
RICHARD HUDSON, North Carolina
CHRIS COLLINS, New York
KEVIN CRAMER, North Dakota

                                 _____

           Subcommittee on Commerce, Manufacturing, and Trade

                       MICHAEL C. BURGESS, Texas
                                 Chairman
                                     JANICE D. SCHAKOWSKY, Illinois
LEONARD LANCE, New Jersey              Ranking Member
  Vice Chairman                      YVETTE D. CLARKE, New York
MARSHA BLACKBURN, Tennessee          JOSEPH P. KENNEDY, III, 
GREGG HARPER, Mississippi                Massachusetts
BRETT GUTHRIE, Kentucky              TONY CARDENAS, California
PETE OLSON, Texas                    BOBBY L. RUSH, Illinois
MIKE POMPEO, Kansas                  G.K. BUTTERFIELD, North Carolina
ADAM KINZINGER, Illinois             PETER WELCH, Vermont
GUS M. BILIRAKIS, Florida            FRANK PALLONE, Jr., New Jersey (ex 
SUSAN W. BROOKS, Indiana                 officio)
MARKWAYNE MULLIN, Oklahoma
FRED UPTON, Michigan (ex officio)

                                  (ii)
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                                  
                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Michael C. Burgess, a Representative in Congress from the 
  State of Texas, opening statement..............................     1
    Prepared statement...........................................     3
Hon. Janice D. Schakowsky, a Representative in Congress from the 
  State of Illinois, opening statement...........................     4
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     5
Hon. Frank Pallone, Jr., a Representative in Congress from the 
  State of New Jersey, opening statement.........................     6
    Prepared statement...........................................     7
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................    56

                               Witnesses

Erik Pritchard, Executive Vice President and General Counsel, 
  Recreational Off-Highway Vehicle Association...................     8
    Prepared statement...........................................    10
    Answers to submitted questions...............................    72
Jonathan Gold, Vice President, Supply Chain and Customs Policy, 
  National Retail Federation.....................................    13
    Prepared statement...........................................    16
    Answers to submitted questions...............................    74
Rachel Weintraub, Legislative Director and General Counsel, 
  Consumer Federation of America.................................    24
    Prepared statement...........................................    26
Mark S. Fellin, Director of Regulatory and Legislative Affairs, 
  Juvenile Products Manufacturers Association....................    34
    Prepared statement...........................................    36
    Answers to submitted questions...............................    77

                           Submitted Material

Letter of February 8, 2016, from Andy S. Counts, Chief Executive 
  Officer, American Home Furnishings Alliance, to Mr. Burgess and 
  Ms. Schakowsky, submitted by Mr. Burgess.......................    57
Statement of the Retail Industry Leaders Association by Kathleen 
  McGuigan, Senior Vice President, Legal and Regulatory Affairs, 
  February 10, 2016, submitted by Mr. Burgess....................    60
 
    INDUSTRY PERSPECTIVES ON THE CONSUMER PRODUCT SAFETY COMMISSION

                              ----------                              


                      WEDNESDAY, FEBRUARY 10, 2016

                  House of Representatives,
Subcommittee on Commerce, Manufacturing, and Trade,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:15 a.m., in 
room 2322 Rayburn House Office Building, Hon. Michael Burgess 
(chairman of the subcommittee) presiding.
    Members present: Representatives Burgess, Lance, Blackburn, 
Harper, Guthrie, Olson, Pompeo, Kinzinger, Bilirakis, Brooks, 
Schakowsky, Clarke, Kennedy, Welch, and Pallone (ex officio).
    Staff present: Rebecca Card, Assistant Press Secretary; 
James Decker, Policy Coordinator, Commerce, Manufacturing, and 
Trade; Graham Dufault, Counsel, Commerce, Manufacturing, and 
Trade; Melissa Froelich, Counsel, Commerce, Manufacturing, and 
Trade; Paul Nagle, Chief Counsel, Commerce, Manufacturing, and 
Trade; Olivia Trusty, Professional Staff, Commerce, 
Manufacturing, and Trade; Dylan Vorbach, Legislative Clerk; 
Michelle Ash, Democratic Chief Counsel, Commerce, 
Manufacturing, and Trade; Christine Brennan, Democratic Press 
Secretary; Jeff Carroll, Democratic Staff Director; Lisa 
Goldman, Democratic Counsel, Commerce, Manufacturing, and 
Trade; Tiffany Guarascio, Democratic Deputy Staff Director and 
Chief Health Advisor; Caroline Paris-Behr, Democratic Policy 
Analyst; Diana Rudd, Democratic Legal Fellow; and Andrea 
Sowall, Democratic Staff Member.
    Mr. Burgess. The Subcommittee on Commerce, Manufacturing, 
and Trade will now come to order. The Chair will recognize 
himself for an opening statement.

OPENING STATEMENT OF HON. MICHAEL C. BURGESS, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    I want to welcome everyone to the committee this morning. 
This morning we do continue our oversight of the Consumer 
Product Safety Commission and its mission to protect consumers 
against unreasonable risks of injury associated with consumer 
products. It is a very timely hearing, as we prepare to enter 
into our budget season.
    This subcommittee held a hearing earlier this Congress with 
four of the Commissioners present about the status of the 
agency agenda. Really two key issues emerged that warrant 
further attention. First, the need for collaboration between 
the Commission and industry to achieve voluntary safety 
standards for regulated products. Secondly, there were concerns 
about the Commission's over-extended rulemaking docket. There 
were concerns about mission creep and there were concerns about 
repeated requests for unprecedented user fee authority without 
the requisite justification. And I did stress at the time and 
will stress again today that when your mission is safety and 
your resources are scarce, it is critical that you prioritize 
your activities where you have clear authority and where you 
can protect the most people.
    I hope we will hear about progress today, particularly on 
the recreational off-road vehicle front. I hope that we will 
hear about a Commission that wants to use technology to help 
innovation, rather than impede it. We have done a whole set of 
hearings on technology disrupting industry. At some point, we 
need to look at how technology can disrupt Washington and make 
it work, make Washington work better to encourage innovations 
and to encourage job creation.
    The innovation driven by the private sector cannot be 
replicated in the confines of the Government. This is 
recognized by the preference for voluntary safety standards and 
the Commission's authorizing statute, the National Technology 
Transfer and Advancement Act, and even in the Office of 
Management of the Budget. Their recent circular A-119, where 
they coordinate and clear things through the Office of 
Management of the Budget that is currently in the process of 
being updated.
    The American National Standards Institute, the Underwriters 
Laboratory are widely known and respected institutions that 
have worked with industry within and outside the Commission's 
jurisdiction to help develop voluntary consensus standards. 
These standards are technical in nature and are generally set 
to achieve, as their name implies, performance goals, as 
opposed to the Government mandating product construction.
    Turning to the Commission's rulemaking docket and request 
for unprecedented user fee authority, I am interested in 
hearing from our witnesses today about how these outstanding 
issues impact a company's ability to plan for the future and a 
company's ability to innovate. For example, since our last 
hearing, there has been no change in the status of some of the 
most controversial processes in rulemaking. This includes a 
rulemaking that is still pending to upend the incredibly 
successful voluntary recall program. The import surveillance 
rulemaking, commonly known as the 1110 Rule has now been turned 
into a pilot program with eight participating companies. The 
pilot's implementation guide was implemented just a few weeks 
ago to reflect the first feedback received from the Customs and 
Border Protection Support Network Working Group. The Commission 
has renewed their request for unprecedented user fee authority 
which, besides the constitutional question at hand, is 
premature, given the early stages of the pilot project.
    I am interested to hear from the panelists what outstanding 
issues remain with the pilot's development and what benchmarks 
we should be looking for when the Commission reports on the 
pilot's progress.
    Finally, it is incumbent upon this subcommittee to find out 
whether there has been any progress on reducing third party 
testing burdens for small businesses in the United States. This 
is a bipartisan concern and has been addressed multiple times 
by Congress since 2011. It is frustrating to be sitting here 
today years later without this issue being resolved.
    I think we all share the goal of preventing tragic and 
unfortunate injuries from consumer products. I certainly look 
forward to hearing from our witnesses about the status and 
tenor of their working relationship with the Commission and how 
these relationships can be leveraged to achieve the common 
safety goal. Industry certainly must do its part.
    [The prepared statement of Mr. Burgess follows:]

             Prepared statement of Hon. Michael C. Burgess

    This morning we continue our oversight of the Consumer 
Product Safety Commission and its mission to protect consumers 
against unreasonable risks of injury associated with consumer 
products. It is a very timely hearing as we also prepare to 
enter into budget season.
    This subcommittee held a hearing earlier this Congress with 
four of the Commissioners about the status of the agency 
agenda. Two key issues emerged that warrant further attention. 
First, the need for collaboration between the Commission and 
industry to achieve voluntary safety standards for regulated 
products. Second, there were concerns about the Commission's 
overextended rulemaking docket, mission creep and repeated 
requests for unprecedented user fee authority without the 
requisite justification. I stressed at that time and will 
stress again that when your mission is safety and your 
resources are scarce it is critical that you prioritize 
activities where you have clear authority and where you can 
protect the most people.
    I hope that we will hear about progress today, particularly 
on the R O V front. I also hope that we will hear about a 
Commission that wants to use technology to help innovation 
rather than hinder it. We have done a whole set of hearings on 
technology disrupting industry. At some point we need to look 
at how technology can disrupt Washington and make it work 
better to encourage innovations and job creation.
    The innovation driven by the private sector cannot be 
replicated in the confines of the Government. This is 
recognized by the preference for voluntary safety standards in 
the Commission's authorizing statute, the National Technology 
Transfer and Advancement Act, and even the Office of Management 
and Budget's Circular A--119 that is currently being updated.
    The American National Standards Institute, A.S.T.M. 
International, and Underwriters Laboratory, are widely known 
and respected institutions that have worked with countless 
industries, within and outside the Commissions' jurisdiction, 
to develop voluntary consensus standards. These standards are 
technical in nature and are generally set to achieve, as their 
name implies, performance goals-as opposed to Government-
mandated product construction.
    Turning to the Commission's rulemaking docket and request 
for unprecedented user fee authority, I am interested in 
hearing from the witnesses about how these outstanding issues 
impact companies' ability to plan for the future and innovate.
    For example, since our last hearing, there has been no 
change in the status of some of the most controversial process 
rulemakings. This includes a rulemaking that is still pending 
to upend the incredibly successful, and award winning, 
voluntary recall program.
    The import surveillance rulemaking, commonly known as the 
1110 Rule, has now been turned into a pilot program with eight 
participating companies. The pilot's implementation guide was 
updated just a few weeks ago to reflect the first set of 
feedback received from the Customs and Border Protection Trade 
Support Network Working Group.
    The Commission has renewed their request for unprecedented 
user fee authority which, besides the constitutional questions, 
is clearly premature given the early stages of the pilot 
project. I am interested to hear from the panelists what 
outstanding issues remain with the pilot's development and what 
benchmarks we should be looking for when the Commission reports 
on the pilot's progress.
    Finally, it is incumbent upon this subcommittee to find out 
whether there has been any progress on reducing third party 
testing burdens for small businesses in the U.S. This is a 
bipartisan concern that has been addressed multiple times by 
Congress since 2011. It is frustrating to be sitting here 
today, years later without this issue being resolved.
    We all share the goal of preventing tragic and unfortunate 
injuries from consumer products. I look forward to hearing from 
the witnesses about the status and tenor of their working 
relationship with the Commission and how those relationships 
can be leveraged to achieve that common safety goal. Industry 
certainly must do its part.

    Mr. Burgess. And now I would like to recognize the ranking 
member of the subcommittee, Ms. Schakowsky from Illinois, 5 
minutes for an opening statement, please.

       OPENING STATEMENT OF HON. JANICE D. SCHAKOWSKY, A 
     REPRESENTATIVE IN CONGRESS FROM THE STATE OF ILLINOIS

    Ms. Schakowsky. I thank the chairman--we have got some 
feedback here--for holding today's hearing on the Consumer 
Product Safety Commission. I appreciate the opportunity to 
highlight the successes of the Commission and to learn where 
even more progress can be made.
    This hearing is to focus specifically on industry 
perspectives. And while it is important to hear from business 
under the CPSC oversight, I believe the focus should always be 
on the Commission's impact in protecting consumers from harmful 
products and that is what I plan to spend my time on today.
    This subcommittee played a major role in the enactment of 
the Consumer Product Safety Improvement Act, which was signed 
into law by President Bush in 2008. It was the product of broad 
bipartisan negotiation and it passed the House by a vote of 407 
to nothing. The legislation gave CPSC additional authority and 
resources so it could become the consumer watchdog that 
Americans deserve. It included a provision requiring mandatory 
standards and testing for infant and toddler products, such as 
cribs and high chairs, as well as a requirement for postage 
paid recall registration cards to be attached to products so 
that customers can be quickly notified if the products are 
dangerous and I was proud to author both of those improvements.
    The CPSIA also included mandatory toy safety standards, 
including banning lead and dangerous phthalates in toys which 
are preventing injuries and saving lives.
    The Commission has taken its enhanced authority and support 
to improve consumer product safety from cribs to toys, to 
cleaning products and I look forward to hearing from our 
witnesses about those successes and others.
    I also look forward to hearing from our witnesses their 
ideas for how to improve consumer outreach. In the context of 
auto safety, we have discussed ways to improve notice to 
consumers of recalls and how to increase consumer 
responsiveness to recalls. That same concept is just as 
important in this context, where notice to consumers and 
consumer response is actually much lower but where failure to 
act can have a similar deadly consequence.
    I will say that I am disappointed that today's hearing does 
not include a member panel on bills related to CPSC oversight 
and regulation of guns, which no less than four members have 
asked for. With an ever worsening gun crisis in this country 
and a legitimate debate about whether CPSC should have the 
authority to protect consumers in this area, it seems obvious 
that we should be exploring these legislative proposals. 
Unfortunately, requests to testify from Representatives Engle, 
Honda, Robin Kelly, and Maloney were denied by the majority.
    Again, I look forward to hearing from our witnesses about 
the progress we have seen at the Consumer Product Safety 
Commission and where the Commission should go from here.
    Let me just say with a couple minutes, before I was elected 
to office, I identified myself as a consumer advocate. And I am 
sure many of you enjoy or appreciate being able to see dates on 
food. And in 1970, when I was a very young housewife, we got 
together, five of us, six of us, I was the sixth, and modestly 
called ourselves National Consumers United, all six of us. And 
we went to work cracking the codes that were on every product. 
You could not tell how old the food was. It was kind of a 
raucous campaign with lawyers involved from the retailers, et 
cetera. And finally, we did win this because it has so much 
favor among consumers but it also really helped the retailers 
with their inventory control. Because seeing everybody being 
able to see the dates, there were no laws passed, but the whole 
idea mushroomed, snowballed, and now people really rely on 
those dates.
    So, I guess my point is this, that we can find ways where 
consumers and the industry, our interest coincide and we make 
life better for everyone. That incident as a very young 
housewife really changed my life, as someone who could get 
something done. And it has been my mission ever since that we 
find ways that we can make the marketplace more fair for 
consumers.
    And I yield back.
    Mr. Burgess. The gentlelady yields back. The Chair thanks 
the gentlelady.
    The Chair recognizes the gentlelady from Tennessee for 5 
minutes for an opening statement, please.

OPENING STATEMENT OF HON. MARSHA BLACKBURN, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF TENNESSEE

    Mrs. Blackburn. Thank you, Mr. Chairman. And I want to 
welcome those of you who are on the panel today. Please know we 
have a Medicaid hearing going on down on the first floor. So, 
we are going to be back and forth a little bit today in sharing 
our time.
    The chairman mentioned some of the problems with the 1110 
import system and we are going to want to come back to you on 
that issue with some questions. Third party testing burdens, 
there are some issues that remain with this program.
    I really would like to just go a little bit to the point. 
We feel as if we have given you a mandate to reduce these 
regulatory burdens and testing burdens and to look at the 
marketplace as a whole and to say how do we achieve our goals 
with product safety, consumer safety, and how do we do this in 
an effective and efficient manner, that is going to be fair to 
the taxpayer. And we are going to look at you, come to you with 
some questions about how you are relieving that regulatory 
burden and what you see as being some best steps, next steps as 
we try to reduce that.
    With that Mr. Chairman, I am going to yield back my time 
but say we do want to approach a couple of these specific 
issues with specific answers. Thank you.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back.
    The Chair recognizes the ranking member of the full 
committee, Mr. Pallone, 5 minutes for an opening statement, 
please.

OPENING STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Thank you, Mr. Chairman.
    I want to start by noting that we received letters from 
Representative Engle, a member of the full committee, Mr. 
Honda, Mr. Maloney, and Ms. Kelly requesting a member panel at 
this hearing. And each of these members has introduced 
legislation that would amend the jurisdiction of the Consumer 
Product Safety Commission over guns and toy guns. And I think 
the issues raised by these members certainly is worthy of 
discussion and I am disappointed that the request was denied by 
the chairman and by the majority.
    While the topic of today's hearing was listed as industry 
perspectives on the CPSC, I am encouraged that the perspective 
of consumer advocates was added and I look forward to that 
testimony.
    In 2008, Congress passed the Consumer Product Safety 
Improvement Act, CPSIA, and in follow-up legislation 2011 made 
major improvements to CPSC's operations and to the safety of 
consumer products. One of the most successful sections of the 
CPSIA was the Danny Keysar Child Product Safety Notification 
Act, which was authored by our ranking member Schakowsky. And 
this portion of the law requires the Commission to develop 
mandatory safety standards for durable infant or toddler 
products, such as infant walkers, high chairs, and cribs. Final 
safety standards for 14 products have been promulgated and 
proposed safety standards for six more products have been 
issued.
    And that is great progress but there is still more to do. 
As the Commission moves beyond implementation of the CPSIA, the 
Commission need an agile system to deal with emerging hazards. 
Recently, we have heard numerous reports of hoverboards 
catching fire or exploding, not to mention all those videos of 
riders falling off of their hoverboards.
    There is the ongoing issue of artificial turf fields. For 
over a year, I have been calling on the CPSC and others to 
conduct a comprehensive review of these fields and questioning 
the safety of crumb rubber used on artificial playing turf and 
playgrounds across the country. That crumb rubber is made from 
recycled tires that often contain cancer-causing chemicals. It 
is clear that we need more information about the safety of 
crumb rubber. But in the meantime, kids play on it every day 
and so we need to begin this review immediately.
    Although the CPSC Commissioners are not hear today, I look 
forward to hearing from our witnesses about how the CPSC can 
work with industry and consumer safety advocates on these types 
of emerging hazards. I want to know how the Commission can best 
address foreseeable risk and be better prepared when unexpected 
problems occur.
    We should strive for proactive safety instead of just 
waiting to react after injuries or deaths occur. We should 
continue to encourage new and innovative products but they must 
be safe for consumers.
    And the CPSC plays a vital role in protecting lives of all 
Americans. It is a small agency with a big mission but we must 
ensure that the CPSC has the support from Congress and the 
resources it needs to fulfill its mission.
    I yield back, Mr. Chairman.
    [The prepared statement of Mr. Pallone follows:]

             Prepared statement of Hon. Frank Pallone, Jr.

    Thank you, Mr. Chairman. I want to start by noting that we 
received letters from Representatives Engel (a member of the 
full committee), Honda, Maloney, and Kelly requesting a member 
panel at this hearing.
    Each of these members has introduced legislation that would 
amend the jurisdiction of the Consumer Product Safety 
Commission over guns and toy guns. The issues raised by these 
distinguished members certainly are worthy of discussion and I 
am disappointed that their request was denied by the Chairman 
and by the majority.
    While the topic of today's hearing was listed as industry 
perspectives on the CPSC, I'm encouraged that the perspective 
of consumer advocates was rightly added, and I look forward to 
that testimony.
    In 2008, Congress passed the Consumer Product Safety 
Improvement Act (CPSIA). CPSIA and follow-up legislation in 
2011 made major improvements to CPSC's operations and to the 
safety of consumer products.
    One of the most successful sections of the CPSIA was the 
``Danny Keysar Child Product Safety Notification Act, which was 
authored by Ranking Member Schakowsky. This portion of the law 
requires the Commission to develop mandatory safety standards 
for durable infant or toddler products, such as infant walkers, 
high chairs, and cribs. Final safety standards for 14 products 
have been promulgated, and proposed safety standards for six 
more products have been issued.
    That is great progress, but there is more to do. As the 
Commission moves beyond implementation of the CPSIA, the 
Commission needs an agile system to deal with emerging hazards. 
Recently, we have heard numerous reports of hoverboards 
catching fire or exploding, not to mention all those videos of 
riders falling off of their hoverboards.
    There is the ongoing issue of artificial turf fields. For 
over a year, I have been calling on the CPSC and others to 
conduct a comprehensive review of these fields and questioning 
the safety of crumb rubber used on artificial playing turf and 
playgrounds across the country. That crumb rubber is made of 
recycled tires that often contain cancer-causing chemicals. It 
is clear that we need more information about the safety of 
crumb rubber. But in the meantime, kids play on it every day, 
and so we need to begin this review immediately.
    Although the CPSC Commissioners are not here today, I look 
forward to hearing from our witnesses about how the CPSC can 
work with industry and consumer safety advocates on these types 
of emerging hazards. I want to know how the Commission can best 
address foreseeable risks and be better prepared when 
unexpected problems occur.
    We should strive for proactive safety, instead of just 
waiting to react after injuries or deaths occur. We should 
continue to encourage new and innovative products, but they 
must be safe for consumers.
    The CPSC plays a vital role in protecting lives of all 
Americans. It is a small agency with a big mission. We must 
ensure that the CPSC has the support from Congress and the 
resources it needs to fulfill that mission.
    Thank you.

    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman.
    The Chair would note, and I think the members of the 
subcommittee would agree with me, that we offer our condolences 
to you and your family on the recent loss of your father. 
Certainly, our thoughts are with you, Frank.
    That concludes our opening statements.
    We want to thank all of our witnesses for being here today 
and for taking the time to testify before the subcommittee. 
Today's witnesses will have the opportunity to give opening 
statements, followed by questions from us. Our panel for 
today's hearing will include Mr. Erik Pritchard, the Executive 
Vice President and General Counsel for the Recreational Off-
Highway Vehicle Association; Mr. Jonathan Gold, the Vice 
President for Supply Chain and Customs Policy at the National 
Retail Federation; Ms. Rachel Weintraub, the Legislative 
Director and General Counsel for the Consumer Federation of 
America; and Mr. Mark Fellin, Director of Regulatory and 
Legislative Affairs at the Juvenile Products Manufacturing 
Association.
    We sincerely appreciate all of you being here today. We 
thank you for the privilege of your time. We will begin the 
panel with Mr. Pritchard and you are recognized for 5 minutes 
for an opening statement, please.

  STATEMENTS OF ERIK PRITCHARD, EXECUTIVE VICE PRESIDENT AND 
GENERAL COUNSEL, RECREATIONAL OFF-HIGHWAY VEHICLE ASSOCIATION; 
JONATHAN GOLD, VICE PRESIDENT, SUPPLY CHAIN AND CUSTOMS POLICY, 
   NATIONAL RETAIL FEDERATION; RACHEL WEINTRAUB, LEGISLATIVE 
 DIRECTOR AND GENERAL COUNSEL, CONSUMER FEDERATION OF AMERICA; 
  AND MARK S. FELLIN, DIRECTOR OF REGULATORY AND LEGISLATIVE 
      AFFAIRS, JUVENILE PRODUCTS MANUFACTURERS ASSOCIATION

                  STATEMENT OF ERIK PRITCHARD

    Good morning. Mr. Chairman, ranking member, members of the 
committee. My name is Erik Pritchard. I am the Executive Vice 
President and General Counsel of the Recreational Off-Highway 
Vehicle Association, commonly known as ROHVA. ROHVA is a not-
for-profit trade association sponsored by Arctic Cat, BRP, 
Honda, John Deere, Kawasaki, Polaris, Textron, and Yamaha.
    ROHVA was formed to promote the safe and responsible use of 
recreational off-highway vehicles, commonly referred to as ROVs 
or side-by-sides--I like ROV--manufactured and distributed in 
North America. ROVs are used by families, emergency personnel, 
and the U.S. military in a variety of environments ranging from 
mud to sand, to forest to trials. This is a vibrant high-growth 
industry and a bright spot in the U.S. manufacturing economy.
    I last appeared before this subcommittee on May 19, 2015. 
Then, as now, the topic was the U.S. Consumer Product Safety 
Commission, CPSC, which is the principle Federal regulator of 
the ROV industry. But much has changed over the last 8 months 
since that hearing.
    By way of background, ROHVA is accredited by the American 
National Standards Institute, ANSI, to develop voluntary 
standards for the equipment configuration and performance 
requirements of ROVs. Voluntary does not mean opt-in or opt-
out. Voluntary standards become the benchmark against which 
product design and performance is judged. Really, voluntary 
means industry and other stakeholders, including the CPSC and 
consumers, voluntarily develop product standards pursuant to 
ANSI standards development procedures.
    I am pleased to report that the ROV industry and the CPSC, 
as well as other stakeholders have worked together to develop 
an updated voluntary standard for ROVs, effectively mooting the 
CPSC's Notice of Proposed Rulemaking for ROVs. In this regard, 
CPSC staff's December 1, 2015 to ROHVA reads, ``CPSC staff 
supports the proposed changes to the voluntary standard and 
believes the aggregate effect of improved vehicle stability, 
handling, and occupant protection will reduce injuries and 
deaths associated with ROV rollovers.''
    As a result of this support, we expect that once the 
updated voluntary standard is published, likely in a few 
months, CPSC staff will recommend that the Commission terminate 
the rulemaking. This positive outcome resulted from the joint 
efforts of industry and CPSC staff, and through Congress' 
leadership, including, in particular, the efforts of this 
subcommittee.
    Without belaboring the history, industry discussions with 
the CPSC had some positive momentum back in September and 
October of 2014, when representatives of ROHVA and each member 
company traveled to Rockville and Bethesda, Maryland, to 
explain how close the parties were and that any differences 
could be overcome through further discussion.
    Unfortunately, that momentum stalled on October 29, 2014, 
when the Commission voted three to two to issue its Notice of 
Proposed Rulemaking for ROVs. Nevertheless, the industry and 
CPSC resumed their discussions with meetings in March, May, 
July, and October 2015, culminating with ROHVA circulating the 
updated draft voluntary standard a few months ago.
    The leadership and efforts of the U.S. Congress were 
instrumental in helping industry and the CPSC achieve this 
positive result. Senators and representatives from both parties 
repeatedly the CPSC to engage in the voluntary standards 
process, rather than pursue rulemaking. This subcommittee went 
further and elicited testimony from various stakeholders, 
including from CPSC Commissioners and the industry, regarding 
the ROV In-Depth Examination Act, the RIDE Act, which would 
require an independent examination of CPSC's proposals in 
supporting data by the National Academy of Sciences, among 
others.
    Due to the successful agency-industry collaboration on the 
updated voluntary standard, however, it now appears that that 
review required by the RIDE Act will not be necessary. This 
process was costly and time-consuming for both CPSC and the 
industry and we appreciate the CPSC staff's diligence in 
working through the issues with us.
    It is indisputable that the U.S. Congress has other 
important and complex business and yet, Congress and this 
subcommittee took the time to provide the necessary oversight 
essential to a properly functioning regulatory system. That is 
no small thing.
    On behalf of the ROV industry, thank you for your 
dedication to helping resolve this important matter.
    [The prepared statement of Mr. Pritchard follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    Mr. Gold, 5 minutes for an opening statement, please.

                   STATEMENT OF JONATHAN GOLD

    Mr. Gold. Good morning Chairman Burgess, Ranking Member 
Schakowsky, and distinguished members of the subcommittee. 
Thank you for the opportunity to testify this morning and 
provide NRF's views on the activities and developments at the 
CPSC. I would like to ask that my full statement be included in 
the record.
    NRF is the world's largest retail trade association, 
representing all segments of the retail industry. We have a 
proud history of engaging with the CPSC, especially since the 
enactment of the CPSIA. While we have had some issues with its 
implementation and interpretation, we have always sought to 
positively interact with the CPSC with the viewpoint and 
objective of ensuring that products our members sell are safe 
for American families.
    NRF's members have no interest in selling unsafe or 
violative products. A vibrant and well-resourced CPSC and a 
marketplace free of unsafe products is aligned with the 
interest and desires of retailers and the safety well-being of 
their consumers.
    NRF has, for several years, strongly encouraged the CPSC to 
create a permanent trade advisory group similar to the Advisory 
Committee on Commercial Operations to U.S. Customs and Border 
Protection, the COAC, which routinely advises the CBP on the 
many complex issues related to both imports and exports of 
goods.
    The CPSC did facilitate the formation of a product safety 
and working group under the COAC to advise on the proposed 
product safety certificate e-filing mandate, the Section 1110 
Rule. We appreciate Chairman Kaye helping to facilitate this 
working group, which has led to the creation of the current e-
Filing Alpha Pilot. Again, having an official advisory 
committee in place to tackle these and other complex supply 
chain-related issues will help the CPSC in the future.
    Now, the Section 1110 Rule did contain many troubling 
provisions in addition to the sweeping new mandate, including 
possibly changing who is required to issue the CPSC certificate 
and expansion of the data required on the certificates. We hope 
the pilot will address some of these issues and concerns that 
we have moving forward.
    NRF members are also concerned with two of the proposed 
regulations that may have little benefit to consumer safety but 
enormous burdens on the regulated industry. These include the 
proposed Voluntary Recall Rule and the so-called 6(b) Rule. NRF 
strongly questions these proposals' necessity, let alone the 
enhancement of product safety. We have placed new mandates and 
burdens on companies that voluntarily report information to and 
that offer to voluntarily recall products in conjunction with 
the CPSC.
    Chairman Kaye has publicly stated that these two proposed 
rules are not his priorities. We would then urge the Commission 
to fully withdraw these proposals and initiate formal 
stakeholder discussions about how such rules can be best served 
and benefit consumers.
    Another related proposal before the Congress is a renewed 
request by the agency for authority to impose user fees for the 
agency's Risk Assessment Methodology to screen imports for 
possible product safety violations and risk. While we strongly 
support risk-based targeting, we have many questions about how 
such user fee will be developed, collected, and used.
    Mr. Chairman, we believe that programs such as the Retail 
Reporting Program could continue to provide valuable 
information to the agency. The program is in limbo right now, 
as the agency continues to conduct an internal review. We 
believe a robust retail reporting program will provide benefits 
to the CPSC, program participants, and most importantly 
consumers, by alerting the agency to product safety issues at 
the very earliest stage possible.
    As the CPSC moves forward towards regulating in the 
enormously complex and fast-changing global supply chain, we 
strongly believe that the agency needs to further collaborate 
with all stakeholders to ensure that regulations not only meet 
their stated goal, but do so in a way that does not overly 
burden the industry. Regulations must not only work, but they 
must be implemented in a seamless manner.
    I will note that there does appear to be a new spirit of 
bipartisanship among the Commissioners. Chairman Kaye, all of 
the Commissioners, and senior staff seem to be more willing to 
listen to the views, the concerns of agency stakeholders. These 
are very welcome trends and ones which we again hope will 
materialize into more permanent efforts to engage the public 
and those most impacted by the Commission.
    Finally, Mr. Chairman, I would like to briefly raise an 
issue of concern for retailers; that is, the real and growing 
trend of the CPSC to look primarily to retailers for recalls 
and other corrective and punitive actions, rather than other 
participants in the supply chain that might be better 
positioned to both identify and respond to product safety 
issues. Traditionally, the CPSC has looked primarily to product 
manufacturers to identify and report product safety issues as 
well as undertake product safety recalls. This makes sense, 
since the product manufacturers are typically in the best 
position to identify, understand, and respond to product 
design, manufacturing, or other problems that may lead to a 
consumer hazard. That presumptions seems to have been reversed 
and more and more recalls are being sought first and, in many 
cases, solely of retailers.
    Mr. Chairman, years of adjustment immediately following 
enactment of the CPSIA were difficult and, at times, even 
chaotic. Things seem to have regularized and NRF and its 
members recognize and appreciate the recent efforts of this 
Commission and the dedicated CPSC staff to try to bring 
additional clarity and stakeholder to the agency's still-
changing policies and practices, though much more remains to be 
done on this front.
    The traditional agency model of everything invented here no 
longer works in a real-time world of global supply chain 
dynamics. We are dedicated to continue positive engagement with 
the agency and its leaders to ensure that the safety of 
American families continues to be our mutual and primary 
objective.
    Thank you again for the opportunity to testify and I look 
forward to questions.
    [The prepared statement of Mr. Gold follows:]
   
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
   
   
    
    Mr. Burgess. The Chair thanks the gentleman.
    The Chair now recognizes Ms. Weintraub, 5 minutes for your 
opening statement, please.

                 STATEMENT OF RACHEL WEINTRAUB

    Ms. Weintraub. Chairman Burgess, Ranking Member Schakowsky, 
Ranking Member Pallone, and members of the subcommittee, I 
appreciate the opportunity to provide testimony on CFA's 
perspectives on the CPSC.
    I am Rachel Weintraub, Legislative Director and General 
Counsel with CFA. CFA is a non-profit association of 
approximately 280 pro-consumer groups that was founded in 1968 
to advance the consumer interest through advocacy, research and 
education.
    The CPSC has been working hard to protect consumers from 
product hazards. The CPSC has been communicating with 
businesses about CPSC rules in an unprecedented way, including 
the recent release of a regulatory robot, which will help 
businesses determine which product safety rules apply to their 
products in real time. The Small Business Ombudsman has been 
speaking to business stakeholder business groups, has provided 
direct guidance to thousands of callers and has revamped its 
Web site to provide clear information.
    The implementation of the CPSIA has been a high priority 
and should continue to be so for the CPSC. The CPSC has 
promulgated more rules than it ever has in its history and has 
done so in a relatively short period. The rule are 
substantively strong and have had an important and positive 
impact on consumers. Because of the rules promulgated by the 
CPSC, over a dozen infant durable products, including cribs, 
infant walkers, play yards, and strollers must now meet new 
robust standards. For all of these products, third party 
testing and certification requirements are required. This work 
must continue.
    Another high priority for the CPSC is the consumer incident 
database, saferproducts.gov, required by CPSIA. Some 27,273 
reports have been posted to the site and the database is an 
important and useful tool for consumers, researchers, doctors, 
coroners, and the CPSC. We urge the CPSC and Congress to use 
this resource to protect consumers.
    We urge the CPSC to prioritize these emerging and 
longstanding issues that they are already working to address. 
For example, the CPSC is actively investigating at least 48 
hoverboard fires in 19 States. The CPSC sent out two statements 
on hoverboards warning consumers of potential risks, announcing 
investigations into the incidents and providing consumer 
recommendations. The CPSC announcements have been relied upon 
by many entities who have sought to protect consumers. 
Unfortunately, we know that these products remain in consumers' 
homes, potentially posing risks.
    Potential safety concerns have been raised about crumb 
rubber from tire scraps that are used in playground surfacing 
and synthetic field surfacing. Health risks posed by these 
materials could include lead exposure and cancer risks.
    In 2008, CPSC issued a statement indicating that artificial 
turf made from crumb rubber was OK to install and OK to play 
on. But CPSC has since distanced itself from that release, 
causing consumer uncertainty and concern.
    CPSC is providing technical assistance to California's 
review of crumb rubber and is working with other agencies with 
jurisdictions over this product. CPSC needs an increase in 
their budget appropriation to ensure that these and other 
emerging safety issues can be effectively addressed.
    I now wish to discuss a few long-standing hazards that are 
priorities for the Consumer Federation and should also be for 
CPSC and Congress.
    Window coverings. Due to the documented and persistent 
hazards that cords on window coverings pose to children, in May 
of 2013, CFA and others filed a petition requesting that the 
CPSC promulgate a mandatory standard to make operating cords 
for window coverings inaccessible. At least 11 children die 
each year, despite six industry attempts at developing adequate 
voluntary standards. Deaths and injuries can be eliminated by 
designs that already exist and are available on the market.
    Flame retardants in consumer products. These can be found 
in numerous types of consumer products that have been 
associated with serious health problems. These chemicals 
migrate out from the household products into air and dust. 
Children are especially at risk.
    The CPSC is considering a petition filed by CFA and others 
to adopt mandatory standards to protect consumers from health 
hazards posed by the use of non-polymeric, additive form, 
organohalogen flame retardants in children's products, 
furniture, mattresses, and the casings surrounding electronics.
    Recreational off-highway vehicles pose hazards to consumers 
and the CPSC indicates there were 335 deaths and 506 injuries 
related to ROVs from January 2013 to April 2013. ATVs injured 
at least 93,700 people in 2014 and killed an estimated 638 
people as well. More work needs to be done on these issues.
    Recall effectiveness. The vast majority of consumers who 
own a product never find out that the product they own has been 
recalled. Much more needs to be done.
    I thank you for your consideration.
    [The prepared statement of Ms. Weintraub follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
    Mr. Burgess. The Chair thanks the gentlelady.
    The Chair recognizes Mr. Fellin, 5 minutes to summarize 
your opening statement, please.

                  STATEMENT OF MARK S. FELLIN

    Mr. Fellin. Thank you, Chairman Burgess and Ranking Member 
Schakowsky for the opportunity to provide testimony to this 
committee.
    JPMA is a is a national not-for-profit trade association 
representing 95 percent of the prenatal industry, including the 
producers, importers, and distributors of a broad range of 
child care articles that provide protection to infants and 
assistance to their care givers. Innovating, manufacturing, and 
providing safe products is a priority for JPMA members.
    As a new father to my 5-week-old son, Tucker, I personally 
understand the importance of ensuring that our children are 
safe in all environments and that parents and caregivers are 
educated about the importance of using juvenile products 
safely.
    My testimony today will focus on three areas. First, JPMA's 
relationship with the CPSC as it relates to Section 104 of the 
CPSIA. Second, the CPSC staff involvement throughout the ASTM 
process and, third, industry concerns that the integrity of the 
ASTM Standard setting process be maintained as it relates to 
Section 104 rules.
    JPMA has been instrumental in the development of many key 
standards that have advanced public safety. For example, ASTM 
Subcommittee F15.18 on cribs, toddler beds, and changing tables 
received former Chairman Inez Tenenbaum's inaugural Chairman's 
Circle of Commendation Award for its work as crucial to the 
development of CPSC's new mandatory crib standards, the 
strongest in the world.
    JPMA and CPSC staff have worked collaboratively throughout 
the ASTM process. Relying on each other's expertise, we have 
been able to enhance safety through the ASTM consensus process 
by facilitating the creation of effective standards based upon 
hazard data. Like any relationship, it is not always without 
complications. Let me be very clear. Our industry appreciates 
uniform national safety regulations. The ASTM process is the 
backbone of many advances in product safety. However, this 
process is based upon consensus agreement only after 
consideration of data and sound hazard analysis.
    Over the years, our members have taken CPSC input into 
account when developing and revising the ASTM Juvenile Product 
Standards. We believe in the collaborative nature of the 
process. However, for its part, CPSC staff must better 
understand and appreciate the realities of implementing 
standards for the design and production of actual products.
    As this committee knows, the CPSC is a data-driven agency. 
ASTM participants often rely on CPSC staff to provide summaries 
of verified incident data and engineering analysis. 
Historically, such data has been provided in accordance with 
CPSA Section 6 requirements. Unfortunately, most recently, such 
data has not been shared as required for effective standard 
setting. We urge the CPSC to provide such data, as available, 
and believe that the process works best when there is a two-way 
street.
    We agree with the CPSC's recent recognition and strategic 
plan to address such shortfalls and applaud its desire to 
improve its data systems and increase databased decisionmaking.
    Additionally, our members have significant concerns about 
the manner in which warnings are currently being discussed 
through the ASTM process. We remain committed to safety and 
advancing the standards but believe that arbitrarily changing 
language and/or format in the NPR, after it has been discussed 
and balloted on multiple occasions within the ASTM process, 
does not allow for the best standard to be incorporated as the 
final rule. Additionally, staff action has created the 
perception amongst many participants at ASTM that the CPSC will 
ultimately change the standard during mandatory rulemaking, 
regardless of consensus at ASTM.
    At the end of last year, participants of ASTM shared in a 
letter to the Chairman this sentiment and urges CPSC to delay 
implementation of any juvenile product rulemaking specific to 
product, package, and instruction warning, until a consensus-
based approach could be reached. That letter has been submitted 
for the record for your review.
    JPMA believes strongly in the importance of effective 
recall, combined with Government cooperation. The CPSC's award-
winning voluntary recalls program has saved manufacturers 
countless hours of negotiations and ensured that recalled 
products are voluntarily and quickly removed from traditional 
and virtual store shelves. The proposed changes to the 
voluntary recalls rule are unnecessary and problematic. 
Congress has had, on multiple occasions, the opportunity to 
make changes to the 6(b) process but has not. We believe that 
the confidentiality safeguards available under CPSA Section 
6(b) are vital in maintaining a process that has been in place 
and working for decades.
    While we do not agree with the Commission's decision to 
keep these projects in the operating plan, we do appreciate the 
Chairman's public commitments that neither of these will be 
heard for decisional vote.
    The CPSC and JPMA share the same goal, to advance safety. 
We commend the Chairman for his willingness to work with 
industry on issues, such as the electronic filling of 
certificates at import. We are also encouraged with recent 
studies commissioned by the CPSC to look for ways to reduce the 
burdens posed by excessive third party testing requirements and 
hope that these efforts will finally result in meaningful 
relief to all companies, specifically small ones.
    The CPSC leadership and staff continue to state that there 
is an open-door policy at the agency for all stakeholders. It 
is paramount that this policy be maintained and respected.
    We look forward to our continuing engagement with the 
committee and the CPSC and the ability to walk through an open 
door.
    Thank you Chairman Burgess and members of the committee for 
calling this hearing and inviting JPMA to testify. I look 
forward to your questions.
    [The prepared statement of Mr. Fellin follows:]
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Burgess. The Chair thanks the gentleman.
    The Chair thanks all of our witnesses today. I certainly 
thank you for spending your time with us this morning.
    We will move now into the questions portion of the hearing. 
I will recognize myself for 5 minutes for questions first.
    And Mr. Fellin, congratulations on the birth of your 5-
week-old.
    Mr. Fellin. Thank you.
    Mr. Burgess. You look awfully well-rested for someone with 
a 5-week-old at home.
    Mr. Fellin. I have a very supportive wife.
    Mr. Burgess. There you go.
    Well, your members are pretty heavily engaged in voluntary 
standards in a unique manner. Can you give us a sense of the 
overall relationship between your industry and the Commission? 
Where is the collaboration particularly strong and where are 
there points of tension?
    Mr. Fellin. Overall, the relationship between our agency 
and the CPSC in the ASTM process is extremely strong. We have 
had multiple occasions where CPSC has referenced the final ASTM 
rule without changes. So, for the most part, it is a good and 
positive dialogue.
    Where there is concern right now amongst industry and our 
relationship are really when it comes down to warning labels 
and the way that discussion is currently occurring. There has 
been a lot of work, many ad hoc committees that have discussed 
this and, unfortunately, the resolution just doesn't seem to 
come to fruition with this issue.
    Mr. Burgess. Are you hopeful or optimistic that that gulf 
could be bridged?
    Mr. Fellin. Unfortunately, based on recent discussions, I 
feel like we are at an impasse. And the fear is that the CPSC 
is going to go ahead with rulemaking and incorporating of the 
ANSI standards without necessarily going through the ASTM 
process.
    Well, thank you for sharing that with us. Perhaps that is 
something where the subcommittee could have some additional 
interest.
    Mr. Pritchard, you were here before and I certainly thank 
you for your remarks this morning. It is rare, as a member of 
Congress, when we hear that we have done our job and things 
have worked. So, I appreciate you for sharing that experience 
with us.
    But in May when you testified, your industry was right in 
the middle of updating its voluntary safety standard. It was 
contentious with the Consumer Product Safety Commission staff. 
How important was it for your industry that the CPSC staff 
reevaluated their recommendations to the Commission once the 
voluntary standard was updated?
    Mr. Pritchard. So, I think the factor in the middle of 
that, the reevaluation or the recommendation to the 
Commissioners, I think what they have done is they have 
evaluated the updated draft standard, which they received late 
last year, seemingly approve it, based on their letter. We have 
had good conversations about it and in our view, we are moving 
forward to finalizing the voluntary standards.
    At that time, we think that the staff will recommend that 
the Commission terminate the rulemaking. But to get from where 
we were to here, took a lot of steps and a lot of 
conversations. And frankly, Congress' involvement was crucial. 
There is just nothing else to say about it.
    I think we were in a place where we had our position, they 
had their position and someone needed to help come in and break 
the logjam and get the parties talking to each other and 
listening to each other a little bit better.
    And I would just want to add to that point that those 
conversations have continued. And so I think we are in a much 
better place than we were 8 months ago, even 6 months ago.
    Mr. Burgess. And that is to what you attribute the breaking 
of the logjam? Because when you were here before, it was pretty 
tense.
    Mr. Pritchard. It was tense and it remained that way for a 
while. I do believe it broke the logjam but I think you can't 
underestimate the CPSC staff's willingness to still engage with 
us in those discussion. We did keep talking. They deserve 
credit for continuing to talk with us and those conversations 
were in-person, on the telephone, offsite to see the vehicles 
being tested. So, it was a collective effort but I can't 
understate the importance of your involvement.
    Mr. Burgess. OK, just as a point of congressional trivia, I 
am the chairman of the Congressional Motorcycle Caucus. So, I 
wanted to share that with everyone in full disclosure.
    Well, and I will, too, say the staff at the Consumer 
Product Safety Commission--it has been a few years since I have 
been out there and visited with the staff, but I have done 
that. In fact, we were working on the bill in 2007 and 2008 and 
the staff is certainly nonpartisan. Certainly, they are 
dedicated to their job of consumer safety. Some days, or some 
things, or some areas where they look quite innovative in their 
ability to actually create the tools that they needed to test a 
particular product. So, I just want to echo your sentiment on 
what a good job that the staff does and certainly, they don't 
get singled out for praise often enough.
    Mr. Gold, I just want to address one thing with you and I 
may provide some follow-up questions for you. In your testimony 
finally, I would like to briefly raise an issue that has not 
been discussed with the subcommittee or generally to date, the 
recalls being visited upon the retailer, as opposed to the 
manufacturer.
    And when I sat on this subcommittee many years ago when 
Chairman Rush was the subcommittee chair, this seemed to be a 
significant problem that products that were going to be 
recalled were finding their way into the country and then the 
recall happens. And I remember Chairman Rush expressing some 
concern that some of these products that were recalled for a 
valid reason might end up in discount houses in neighborhoods 
across the country. Is that to which you were referring in that 
part of your testimony?
    Mr. Gold. Mr. Chairman, no. Unfortunately, we are seeing 
instances where just products in general, the CPSC is going to 
the retailer first to push for recalls. We were seeing some 
issues, two issues that were mentioned earlier like hoverboards 
and window coverings, where the CPSC is going through the 
retailer and trying to make sure that products were pulled off 
the shelves or a recall is done, without working through the 
process and working with the manufacturers.
    It is a longstanding process. We just feel like there is 
more emphasis now on going to the retailer because they are the 
consumer-facing aspect to push that action before going through 
the process.
    And as far as the other products we were talking about, 
this is where kind of the worst-based methodology comes in in 
risk targeting and the ability to do that to make sure you 
don't have these volatile products coming into the country from 
the start.
    Mr. Burgess. Yes, I do want to follow up with you in 
writing for the record.
    Ms. Schakowsky, you are recognized for 5 minutes for 
questions, please.
    Ms. Schakowsky. Well, hoverboards have come up a number of 
times. They were one of the most popular holiday gift this 
year. But unfortunately, we have been hearing more and more 
reports about hoverboards exploding and catching fire 
unexpectedly. So far, at least 20 U.S. colleges, several major 
airlines, and a few cities have banned them. And some retailers 
have started taking them off the shelves.
    Just yesterday, ABC News reported that a home fire in 
Tennessee was caused by a hoverboard that burst into flames. 
But a consumer who really wants one, can still find one and 
they are still unregulated.
    So, Ms. Weintraub, when it becomes apparent that a new 
product poses a safety risk, how can we ensure that things move 
quickly to reduce the number of accidents, such as leveraging 
rules that already exist for similar products or component 
parts?
    Ms. Weintraub. Well, I think what you suggested is exactly 
right. I mean we need safety standards. And I think for this 
product, we don't need to start from scratch. And UL, for 
example, is expert in lithium-ion batteries. There are other 
standards. They are already moving on a standards process.
    Hoverboards could fit into motorized scooters with an ASTM 
and they are also beginning the voluntary standard process. 
Since they don't need to start from scratch, hopefully, this 
process will move faster.
    But even before a product comes on the market, we think it 
is the responsibility of the manufacturer to do a risk 
assessment, figure out what hazards could this product pose, 
what hazards have other similar products posed, and are there 
similar standards, if not exact standards that couldn't be 
complied with to prevent that type of hazard.
    Consumers also, in a case like this, need concrete 
information. They need to know whether a product that their 
child is riding, that is sitting in their home could explode, 
could cause a fire.
    So, we hope investigations that the CPSC is conducting, and 
our understanding is they have been working around the clock, 
they worked over the holidays, we are very much hoping that 
this investigation will lead to the information so that 
consumers can have concrete information so that products that 
have caused fires will be recalled. And that is what consumers 
need, clear information.
    While it is very positive that there are some retailers 
that aren't selling these products, it is still very consuming 
and they are still very available for purchase.
    Ms. Schakowsky. Hoverboards are not exclusively a child's 
product. So, they are not subject to the same safety standards 
as toys. Is there a gap that we should be concerned? Should 
there be more strict standards in place for products like 
hoverboards which are not made just for kids but are certainly 
used by kids?
    Ms. Weintraub. I think there is a gap for any product that 
is not subject to a voluntary or mandatory standard and we have 
seen this with infant and juvenile products, as well as with 
other products like hoverboards that when there is not a 
standard already in place, there can be risks. And I think this 
product very much shows what can happen when there is not a 
standard and when manufacturers are not testing their products 
to similar types of standards to ensure, in this case, that the 
batteries and the charging mechanisms don't overheat and pose a 
fire risk.
    Ms. Schakowsky. I wanted to ask you about imports. The 
Chairman of CPSC has said that inexpensive models of 
hoverboards manufactured in China are of particular concern and 
that many of the problematic units seem to be coming from 
there. Customs and Border Protection recently seized almost 
3,000 counterfeit hoverboards that they said ``posed a 
potential health risk to U.S. consumers.''
    So, can you talk about some of the challenges associated 
with ensuring the safety of imported consumer products?
    Ms. Weintraub. Sure, especially in cases where products are 
manufactured overseas, imported, and there is not an entity in 
the U.S., it is very difficult for the CPSC to talk with that 
entity, to conduct a voluntary recall, to discuss safety 
issues. So, I think that poses a specific risk to these types 
of products. I think it is for that reason that retailers who 
are the first contact that consumers have with these products 
are being contacted and do have a responsibility. And we 
certainly think that everyone in the supply chain from the 
manufacturer to the retailer, to testing labs, the entire 
supply chain has a responsibility to ensure that products on 
the market don't pose risks to consumers.
    And this is also why we are very supportive of CPSC's 
efforts at import surveillance because another layer in product 
safety is to prevent these products from entering the U.S. 
market and getting into our homes.
    Ms. Schakowsky. Great. I will yield back. Thank you. Thank 
you very much.
    Mr. Burgess. The Chair thanks the gentlelady. The 
gentlelady yields back.
    The Chair now recognizes the gentleman from Kansas, the 
author of the RIDE Act, 5 minutes for questions, please.
    Mr. Pompeo. Thank you very much, Mr. Chairman.
    Mr. Pritchard, what are the lessons learned? How do we 
repeat the success that we collectively add to your industry, 
CPSC and their staff, us here on the committee and the 
Congress? What are the lessons about timing and how we can be 
constructive to work together to get good outcomes for 
consumers and for manufacturers a well?
    Mr. Pritchard. So, I think there a couple steps and I will 
base it on our experience but I think that they can be applied 
fairly broadly.
    One, I think when industry realizes that there is an 
impasse with the Commission, then industry needs to bring it to 
your attention and let you know that there is a problem. I 
think at the Commission, if they are in discussions with 
industry, they should keep those discussions going.
    In my view, voting out the Notice of Proposed Rulemaking 
was a profound mistake and I will tell you why today and what I 
said then. Essentially, the Notice of Proposed Rulemaking puts 
industry on the defensive. And so then, in response, industry 
submits comments back, which are critical, which puts the 
Commission on defensive. So, at that point, it is really hard 
to have a discussion because everybody has basically got their 
backs up, trying to defend positions, rather than trying to 
reach the best outcome.
    So, it is really this. Industry has got a part to play in 
keeping the discussion going. The Commission has a part to play 
in keeping the discussion going. And I think then Congress has 
to be involved early enough to be part of those discussions, to 
let the parties know that Congress is paying attention and that 
Congress is expecting a sensible resolution because I am 
assuming you all don't want to have to deal with legislation 
every time an impasse comes up, whether it is with this Federal 
regulatory agency or another one.
    Mr. Pompeo. That is a pretty fair assumption. Thank you for 
that.
    Ms. Weintraub, you talked about the Consumer Product Safety 
database a little bit in your opening comments. You said there 
were 27,000. What period was that over?
    Ms. Weintraub. So, that is from when it----
    Mr. Pompeo. Is that from inception?
    Ms. Weintraub. Inception. Conception--no, not conception. 
Creation.
    Mr. Pompeo. From when it began.
    Ms. Weintraub. When it began. I think it went online in 
2011 until January 21, 2016.
    Mr. Pompeo. And tell me what benefits you can tangibly 
identify that resulted from that.
    Ms. Weintraub. Sure. Well, as you well know, with 6(b), 
there was a limited amount of information that the CPSC has 
been able to communicate naming brands of products.
    So, before, if a consumer was interested as Mr. Fellin has 
been, in purchasing a product for a new baby, there is limited 
information. He is in a different case because he is an expert 
but there is limited information that you can get from CPSC's 
Web site, other than general information about hazards 
associated with strollers, in particular.
    So, what this database has created is a resource for 
consumers. They could see if they are looking for a stroller 
what consumers' experience has been. They can see if they own a 
stroller, whether someone else has a similar experience or 
maybe it is just specific to their use.
    So, I think it has really created a much more robust and 
much more rich resource for consumers, as well as for 
researchers and others. Something else we have been able to 
identify is sort of well what are the product categories that 
are most represented. Are there trends? So, we have looked at 
his data for that type of stuff.
    Mr. Pompeo. Do you know what the error rate is then, that 
is complaints that were made, items listed of those 27 that 
were just flat out wrong, they had the wrong manufacturer, it 
was un-useful information or even worse?
    Ms. Weintraub. I am sorry, do I know the number that had 
errors?
    Mr. Pompeo. Yes, that were just flat out wrong.
    Ms. Weintraub. I do not.
    Mr. Pompeo. Like if somebody was mad and they wrote down it 
was Brand X and it turned out they had nothing to do with Brand 
X.
    Ms. Weintraub. I do not.
    Mr. Pompeo. Do you know how many hours were spent for 
manufacturers responding in the way that they are required to 
respond by law to items that appear on the CPSC database?
    Ms. Weintraub. I do not.
    Mr. Pompeo. Do you know how much it costs them to do that?
    Ms. Weintraub. I do not.
    Mr. Pompeo. So, not tangible benefits that have been 
identified. That is, we can quantify that and you have no idea 
of what those costs were.
    Ms. Weintraub. I do not have knowledge of those costs.
    Mr. Pompeo. Great, thank you.
    Mr. Chairman, I yield back.
    Mr. Burgess. The Chair thanks the gentleman. The Chair 
recognizes the ranking member of the full committee, Mr. 
Pallone, 5 minutes for questions, please.
    Mr. Pallone. Thank you, Mr. Chairman.
    My questions, initially, are to Ms. Weintraub about the 
crumb rubber, the crumb rubber issue. Over the last several 
years, questions have been raised about the safety of 
artificial turf, which is used in schools, parks, daycare 
centers, and sports fields throughout the country. An NBC News 
report in October 2014 documented a growing group of young 
athletes diagnosed with non-Hodgkin's lymphoma who played on 
artificial turf fields filled with crumb rubber. And the crumb 
rubber is often made from recycled tires, which contains 
carcinogens.
    Following the NBC report, I sent a letter to the Centers 
for Disease Control asking for an official study to examine 
risks of continued exposure to crumb rubber. And in May 2015, 
during a hearing in front of this committee, CPSC Chairman Kaye 
agreed with me that more research is needed. And in October 
2015, Chairman Upton and I sent a letter to the EPA, once 
again, expressing concerns on this issue. But I have to say 
that I am disappointed that still nothing has been done.
    And clearly, this is a complicated issue. Many agencies are 
involved. So, Ms. Weintraub, are you aware of any existing 
industry standards to prevent the use of toxic chemicals in 
artificial turf?
    Ms. Weintraub. I am not aware of a specific standard for 
crumb rubber. We could certainly hope that since it is going 
into a children's product that similar standards could be used 
as guidance, for instance, in terms of lead and other heavy 
metals, but I am not aware of a specific standard.
    Mr. Pallone. Is the research sufficient to conclude that 
exposure to crumb rubber is safe and that it is OK for kids to 
play on it, you think?
    Ms. Weintraub. No, I do not think the research is 
sufficient, and we very much support your position and that of 
the CPSC that more research is needed and that all the 
entities, State, Federal, need to work together as quickly as 
possible to research this issue.
    Mr. Pallone. I think you answered my next question. It was 
about CPSC's limited resources to investigate the possible 
health effects of prolonged exposure to crumb rubber. And you 
said that you do think it would be beneficial for them, CPSC to 
work with the other agencies.
    Artificial turf and crumb rubber has been in use for more 
than a decade. They are using it on playing fields, playgrounds 
across the country but there are a lot of serious safety 
questions that linger unanswered, while our children and 
athletes continue to be exposed. Let me ask you again. What can 
the CPSC do to address safety and health concerns with new 
products, not just crumb rubber, but with new products before 
they come to market so that our children are not the test 
subjects?
    It often seems like the product comes to market and then if 
things go wrong, OK, then we take another look at it. Can we 
look do things differently in that regard?
    Ms. Weintraub. I think we can. I think the responsibility 
lies with the manufacturers of the products to ensure that they 
meet standards, if standards exist. And then if no specific 
standards exist that they use those as guidance to ensure that 
they don't pose risks to consumers. We actually think that for 
many products, such as infant and toddler products, that 
product should not go on the market if there is not a voluntary 
standard.
    Mr. Pallone. You know I think that the public thinks it is 
the opposite. They are shocked when you tell them well, the 
product goes on the market and then we see if it is safe. They 
assume that is has already been tested and safe before it goes 
on the market. But that is not the case. Correct?
    Ms. Weintraub. Correct. And that is certainly true. I mean 
consumers perceive that if a product is available for sale that 
has been tested by some entity for safety. We have tried to 
bridge that gap with CPSIA for infant and toddler products but 
we still have a long way to go.
    Mr. Pallone. Well, let me just ask one more question about 
the artificial fields. I am also concerned about the possible 
physical injuries that can occur while playing on artificial 
fields, such as joint injuries from increased resistance or 
burns from overheated turf. Should the CPSC also be 
investigating these other possible safety concerns, in your 
opinion?
    Ms. Weintraub. Definitely.
    Mr. Pallone. All right. I have a minute left. I wanted to 
ask a little about emerging hazards but I know I don't have 
much time. Is there a difference in how emerging hazards from 
consumer products are handled when they relate to a defect, as 
opposed to an unintended use, such as kids biting into laundry 
pods? I know when my wife starting using these laundry pods, I 
was wondering what they were. My understanding is that kids 
will think they are candy.
    So you know the question is, does that response tend to be 
faster for one than the other of those two types of things?
    Ms. Weintraub. You know I really think, and I worked on the 
laundry pod issues as well as many others, and I think one of 
the biggest responsibilities of a manufacturer is to think of 
foreseeable use, which may include unintended use. But 
foreseeable use of how the product is used in the real world 
must be thought about, must be assessed, and the product must 
be designed for that foreseeable use.
    Mr. Pallone. OK, thanks a lot.
    Mr. Burgess. The gentleman yields back. The Chair thanks 
the gentleman.
    The Chair recognizes the gentleman from Kentucky, Mr. 
Guthrie, 5 minutes for questions, please.
    Mr. Guthrie. Thank you, Mr. Chairman. Thank you for 
conducting this meeting and I thank all the witnesses for being 
here.
    My first question is for Mr. Pritchard. Based on your 
recent experience of vetting the ROV voluntary standard, should 
we be concerned about how the Commission is using or not using 
scientific data to support these policy positions?
    Mr. Pritchard. Our experience was that the data did not 
support the Commission's claims.
    I want to go back in time. We received the Notice of 
Proposed Rulemaking in a briefing package and it had a lot of 
claims in it with references to data and incident reports that 
were separate. So, we requested all of those records and all 
that data and couldn't get it. We couldn't get it and we 
ultimately filed a FOIA appeal, which was granted in its 
entirety some months later.
    When we dug into the data, the data did not match, in our 
view, the claims and we explained that in our comments back to 
the Commission in response to the Notice of Proposed 
Rulemaking. I don't know if that means that there is a profound 
issue or a fundamental issue. I can just tell you that we had 
an issue with the data.
    Mr. Guthrie. Mr. Gold or Mr. Fellin, do you have any 
comments on that type of--that is fine. I have got another 
question. You can go ahead.
    Mr. Fellin. We have had similar concerns along the ASTM 
process where we have requested data from the agency, both 
verbally at ASTM meeting and then also in writing to the 
various CPSC staff members on it and have been denied that 
information.
    Mr. Guthrie. I have a question for you, Mr. Fellin. In May 
2012, the GAO published a report recommending that the 
Commission staff participate more actively in the voluntary 
standards process. Given your experience with the agency, is 
the delay between the publication data of the GAO report, May 
of 2012, and the effective date of the new rules, March 3rd of 
this year, typical?
    Mr. Fellin. I think it all depends on staff resources and 
the priorities of a given Commission.
    Mr. Guthrie. Well, given the importance of voluntary 
standards to the product safety and the Commission's mission, 
should this rule update have been priority over other of their 
undertakings?
    Mr. Fellin. From JPMA's perspective, CPSC already plays a 
vital role in the 104 rulemakings, which I think are a unique 
standard-setting process. We raised concerns with the proposed 
rule mainly that agency staff not have undue influence over the 
process and that staff not dictate Commission decisions. But I 
can't speak as to whether or not it should have been a higher 
priority for other industries.
    Mr. Guthrie. OK, thank you very much.
    And Mr. Gold, you mentioned the Commission's open meetings 
policy in your testimony. Transparency is what we all want to 
see happen. It is a Government good. It is what we need to have 
in place, but just a question about it.
    What impact does this policy have on the Commission's 
ability to communicate with industry and are there 
circumstances where Commission resources have benefitted from 
feedback from the industry prior to releasing the proposed 
rule?
    Mr. Gold. Thank you, Congressman. So, I think the alpha 
pilot is probably the prime example of where there was an issue 
because, as this working group was created under the COAC, 
which is a Customs advisory committee, we had plenty of 
discussions with Customs but yet, CPSC was not in the room for 
these discussions, our technical discussions on how supply 
chains work, how data is transferred, who owns it at what point 
in time. So, as this is a CPSC rulemaking, they are going to be 
relying on CBP to collect the data, not having CPSC in the room 
to understand some of these difficulties was a little 
challenging because we would have to CBP to provide us 
information from CPSC with questions and challenges, and that 
we would have the discussion, and we would have to rely back on 
CBP to go back to CPSC to do the interpretations.
    So, we fully understand transparency and the need for that 
but there are certain times when you have to have these 
technical meetings where you have companies who are talking 
about very business confidential information as far as how 
their supply chains work and what data they have and when they 
have it. Those kinds of meetings get very technical and we 
think should be closed. And this is where an advisory 
committee, whether it is a FACA or some other committee could 
help with this process moving forward.
    It would have been nice, had we had the opportunity to have 
these working group discussions or stakeholder meetings before 
the 1110 rule was put out to talk about some of this so we 
didn't have a rule put out that everybody was opposed to and 
listed a whole number of concerns. Had we had those discussions 
in advance and talked about the complexities, and really had 
discussion about what is it that CPSC wants, what it is that 
industry can provide, it would have been a better position to 
be in than where we are now. We are glad we have the pilot in 
place to really work through some of these technical issues and 
try and figure out how this is best going to work.
    Again, we are very supportive of risk-based targeting. We 
think this will help but because of the complexities, we can't 
just put a rule out and expect everyone to do it. This needs to 
be worked through because of the technical aspect of it.
    Mr. Guthrie. OK, thank you. My time has expired. I yield 
back.
    Mr. Burgess. The Chair thanks the gentleman. The gentleman 
yields back.
    The Chair recognizes the gentlelady from New York, Ms. 
Clarke, 5 minutes for questions, please.
    Ms. Clarke. I thank you, Chairman Burgess for this very 
important hearing. And to all of our witnesses today, thank you 
for lending your expertise to the subject matter at hand.
    I want to raise the issue of recall effectiveness. We would 
all like to avoid problems before they happen but sometimes 
unexpected harms arise. In these cases, the CPSC works with the 
manufacturer of a defective product to conduct a recall but 
notice to consumers is difficult and recall response rates tend 
to be very low.
    So, Ms. Weintraub, do you have any ideas on how the CPSC or 
industry can be more proactive in reaching consumers when there 
is a recall on a product?
    Ms. Weintraub. Yes, I do. Thank you very much for the 
question.
    Both Kids in Danger and the Chairman have said that those 
involved in selling products should use the same amount of 
energy and resources that they do to sell a product to get a 
product back that has been recalled. And we are very far from 
that goal.
    I think there are many things that both the CPSC and those 
in the supply chain can do, using innovative technology, using 
social media, using information that retailers and others have 
about consumers who bought specific products. I think one of 
the issues is targeting the right people, ensuring that the 
people who have the product, who bought the product know about 
a recall.
    I also think it is important for the information to be 
clear. These things should be called recalls. They should be 
available on the Web sites. They should be communicated clearly 
with a very clear action for what the consumer should do, 
clearly articulating the risk. And I think this is a subject 
that many have been working on for a long time but it needs a 
lot more attention.
    Ms. Clarke. Thank you.
    Mr. Fellin, the Danny Keysar Child Product Safety 
Notification Act requires manufacturers of durable infant 
products to provide consumers with a postage-paid registration 
card with each product to improve the effectiveness and 
response rate of recalls. What are your member companies doing 
to increase the rate of return on those registration cards?
    Mr. Fellin. Recall effectiveness is something that I think 
our industry, as well as the consumer groups and governmental 
have the same priority and that is to get the message out as 
quickly as possible. We were proud last year to actually work 
with CFA and the consumer groups to develop an ``It's Not Hard! 
Fill Out the Card!`` campaign. And the whole process of that 
was to educate consumers that it takes 2 minutes. It is postage 
paid for, fill out the card, get it back to the manufacturer.
    While manufacturers continue to try and figure out 
innovative ways to try and reach the consumer, the last thing 
we want as an industry is to have a product that has been 
recalled reach the hands of another consumer and we look to 
continue to work with the agency. And I have asked the agency, 
in meetings with them, to conduct a workshop that would bring a 
lot of these issues to the foreground and discuss recall 
effectiveness because it is a priority for industry as well.
    Ms. Clarke. You just mentioned that you are looking into 
alternative methods as well. Can you drill down on that a 
little bit?
    Mr. Fellin. Of course. A lot of our manufacturers, based on 
the fact that a lot of parents nowadays are younger and much 
more tech savvy have also published registration information on 
their web pages. There is also technology out there that has 
begun to allow to take pictures of various information will 
allow the products to be registered that way. So, we are 
constantly evaluating and looking at ways in which to improve 
that aspect of products.
    Ms. Clarke. Very well. Thank you.
    Mr. Gold, often, manufacturers do not have a relationship 
with consumers but retailers do. What are you member companies 
doing to help get notice to consumers when there is a recall?
    Mr. Gold. You know I think they are doing as much as they 
possibly can. I think, again, as Mr. Fellin said, having this 
workshop to talk about recall effectiveness and how messages 
are put out I think is very important. It is not as easy for a 
retailer to just throw up a recall notice on their Web site, 
there are challenges there. And I think we need to talk through 
that and figure what is the best way.
    Ms. Clarke. You said they are doing the best that they can. 
Is there something specific that they are doing?
    Mr. Gold. I don't have the specifics----
    Ms. Clarke. OK.
    Mr. Gold [continuing]. How retailers are doing it. It 
really depends on the retailer, the relationship, how they are 
getting information out the customers or the users.
    Ms. Clarke. Any examples?
    Mr. Gold. I don't have any.
    Ms. Clarke. OK.
    Mr. Gold. I can provide you some later on. I just can't 
provide you any right now.
    Ms. Clarke. OK, sure. Thank you.
    Mr. Chairman, I yield back.
    Mr. Burgess. The Chair thanks the gentlelady.
    The Chair recognizes the gentlelady from Indiana, Mrs. 
Brooks, 5 minutes for questions, please.
    Mrs. Brooks. Thank you, Mr. Chairman. I want to thank the 
witnesses for their insight.
    Indiana is actually the home of a very, very large presence 
of toy companies and juvenile product manufacturers across our 
State. And Mr. Fellin, you probably know well that Dorel is the 
largest juvenile product manufacturer in the Nation. It is 
based outside of my district down in Columbus, Indiana, but 950 
people work around the clock many shifts to try to ensure that 
they are producing incredibly safe, the safest products 
possible.
    I have a company called IMMI based in Westfield that works 
closely with Dorel to try to ensure that they are designing 
products that are safest on the road. And then in my district 
that I recently visited a toy manufacturer--I am sorry--a 
puzzle manufacturer called Package Right, a puzzle facility in 
Tipton, and I am very pleased to learn that they actually 
brought production back from China in order to ensure safety 
and to reinvest in our economy.
    Back in May, I asked the Chairman--and Mr. Fellin, I will 
start with you--I asked the Chairman of the CPSC about what 
actions they have taken to provide relief to companies for some 
of the third party testing requirements and he mentioned the 
Office of the Ombudsman, that it is providing support and 
assistance to find out whether or not they need certain 
testing. And I am curious whether or not from your companies 
that you work with, how have they found the Ombudsman Office 
either helpful or is it sufficient in reducing the costs and 
burdens to your member companies?
    Mr. Fellin. I don't know if it has necessarily helped in 
reducing the cost. But in terms of helping navigate a very 
complex regulatory framework, the Office of the Ombudsman has 
been extremely helpful in that capacity.
    Mrs. Brooks. Are you still dealing with a lot of the 
smaller manufacturers with respect to their third party testing 
burdens and can you share a bit more about that?
    Mr. Fellin. Absolutely and it doesn't just extend to the 
small manufacturers. Our large manufacturers feel the testing 
burden just the same.
    We are certainly encouraged by the agency's desire to 
promulgate studies on ways to reduce burden and our industry 
has been very active and testified at the CPSC hearings with 
regards to burden reduction.
    Since Congress allocated funds specific to burden 
reduction, we have yet to see any meaningful reduction in that 
capacity but we certainly would welcome it.
    Mrs. Brooks. And when did that happen that Congress 
allocated?
    Mr. Fellin. I believe in last year's Appropriations Bill, 
they allocated $1 million.
    Mrs. Brooks. And you have seen nothing done with that $1 
million?
    Mr. Fellin. To my knowledge, we have not seen anything that 
would provide meaning for you.
    Mrs. Brooks. OK. I am curious whether or not any of the 
other panelists are aware as to whether or not CPSC has used 
the appropriated dollars. Is anyone aware of this issue?
    Mr. Gold. I am aware of the issue but I am not aware, 
again, as Mr. Fellin, that the work continues. I think folks 
are waiting to continue to see CPSC put out more guidance and 
more ways for companies to reduce testing burdens. I know there 
was additional monies put in the budget but we are, again, 
waiting to see the effectiveness of this.
    Mrs. Brooks. Mr. Gold and Mr. Fellin, you both mentioned in 
your testimony a lack of transparency in the Commission's 
justification for a number of the activities, including 
proposals to amend the voluntary standards processes and 
proposed rulemakings. How important do you think it is for the 
Commission to justify its activities and prioritization of 
activities? And it would seem that it would help this committee 
ensure that the committee's actions are directly tied to its 
critical safety mission in a measurable way. And so how 
important is it that you think, and I guess all of you, to 
justify its activities and prioritization of its activities, 
when we don't know how they are using even the funds that have 
already been appropriated?
    Mr. Fellin. The CPSC routinely says that they are a data-
driven agency and they continue to request from our members 
data when making any decision. And I think, in any 
relationship, providing data and a rationale for why you are 
doing things just provides good dialogue. And I would hope that 
in any decision that they were making, that they provided the 
proper rationale for doing so.
    Mrs. Brooks. Mr. Gold?
    Mr. Gold. I would agree. I think two-way communication is 
critical, especially as you are looking at some of these issues 
to get a full understanding of what the issue is and what is a 
reasonable response and how do we move forward is critically 
important.
    We see this with other agencies as well. We think it is 
important to have the bidirectional conversation and 
bidirectional education, where the complexities in the supply 
chain are understood and realized. So, if there are issues with 
recall, let's have a workshop and a dialogue so that you get 
the best and brightest minds in a room and have a conversation 
on how to make this work better.
    If there are issues of recall is not happening because of 
some companies who don't do it, don't punish those who are 
always doing this the right way. Let's focus on how do we go 
after those bad actors.
    So, I think that conversation is extremely important and 
the justification is just as important.
    Mrs. Brooks. Thank you. And just from my conversations, Mr. 
Chairman, child safety is number one priority for all these 
companies. Thank you. I yield back.
    Mr. Burgess. The Chair thanks the gentlelady.
    The Chair recognizes the gentleman from Vermont, Mr. Welch.
    Mr. Welch. No, I yield, Mr. Chairman. I don't have 
questions.
    Mr. Burgess. Very well. The Chair then recognizes the vice 
chair of the subcommittee, Mr. Lance from New Jersey, 5 minutes 
for questions.
    Mr. Lance. Thank you, Mr. Chairman.
    Mr. Gold, at a recent public Commission meeting, there was 
a discussion between the Commissioner Buerkle, whom we know, 
and Import Surveillance staff about the new pilot project to 
improve targeting of potentially unsafe products at the border. 
During the discussion and the video is available on the 
Commission's Web site, the staff was asked about its 
justification for adding the name of the testing lab to the 
list of mandatory disclosures for the pilot.
    The staff said that it had no quantitative information to 
support the proposal. Is it concerning that the Commission is 
putting together a pilot program without data to support its 
work and is there a risk that this undermines the willingness 
of companies to participate in the project?
    Mr. Gold. Yes, but again, our hope is that with the pilot 
project we can actually identify what are the data elements 
that are needed to help enhance risk management.
    Part of the concern is that there is always a request for 
more data but more data isn't always necessary. From our 
perspective, we would have had a better conversation from the 
outset with CPSC asking what data do you think you need, what 
are you currently getting, and how is that helping risk 
assessment, as opposed to just putting out a notice saying here 
is what we think we need but not fully understanding the 
process by which all that information is acquired and what 
benefit that might actually accrue to the agency.
    So, again, coming back to having an advisory committee to 
fully dig into these issues before a notification or regulation 
is put out, we think is extremely important. Again, especially 
if there is no justification on the front end for why they need 
it, then we have to question well, why are you proposing it.
    So, again, having that conversation in advance to get a 
full understanding of what the concern is, how can we better 
address it and going into the conversation about what data is 
available, who owns it at what point in time, how readily 
available is it, how can we can get it to the Commission, we 
think are all questions that should have been done in advance 
of the NPRM coming out.
    Hopefully now, with a pilot project in place, a lot of 
these questions can be addressed.
    Mr. Lance. Thank you. Is there anyone else on the panel who 
would like to comment?
    Mr. Gold, how important is the voluntary recall process to 
retailers? How would the changes proposed by the Commission to 
the voluntary recall process have an impact on retailer's 
ability to get potentially harmful products off of their 
shelves?
    Mr. Gold. It is extremely important and I think, as was 
noted earlier in the discussion today, it is an award-winning 
program. The Commission, themselves, have noted that it is 
extremely important. I think there are concerns that any of 
these changes that have been proposed might stymie some of the 
information that might come to the Commission. Right now, there 
is times where there is not enough clarity on whether or not a 
report needs to be made.
    So right now, retailers, they have guidance from the 
Commission when in doubt, report. If they have questions going 
forward with some of the new requirements, they not be so ready 
to report if they really don't have true knowledge of the 
issue.
    So, I think continuing with the program that they have in 
place, if there are improvements that can be made, again, let's 
sit down, have a conversation and figure out what changes need 
to be made or adjusted to handle some of the issues.
    Mr. Lance. Thank you. And again, Mr. Gold, do your members 
have concerns with the user fee as proposed by the CPSC in the 
budget request of last year and this year? And is there a 
scenario that your members would support such a user fee?
    Mr. Gold. We definitely have concerns not knowing exactly 
how user fee is going to be used. There are still issues with 
the RAM, the Risk Assessment Methodology which is continuing to 
be built.
    We have, in the past had issues with other agencies 
collecting user fees intended for one purpose, they get 
siphoned off for something else.
    Mr. Lance. No, that never happens. No.
    Mr. Gold. So, that continues to be a concern. Again, if we 
can have full visibility into the system, how it is going to 
work, and have a conversation about it before just instituting 
a user fee, there might be some willingness. But again, not 
knowing how it is going to work, there are definitely concerns.
    Mr. Lance. Thank you. Is there anyone else on the panel who 
would like to comment?
    Seeing none, then, Mr. Chairman, I yield back 45 seconds.
    Mr. Burgess. The gentleman yields back, and the Chair 
thanks the gentleman.
    Let me just ask if there is anyone on the subcommittee who 
would seek additional time with our witnesses this morning.
    Seeing no further members wishing to ask questions for our 
panel, I would like to thank, again, our witnesses for being 
here today.
    Before we conclude, I would like to submit the following 
documents for the record by unanimous consent: a letter to the 
subcommittee from the American Home Furnishings Alliance, a 
statement from the Retail Industry Leaders Association.
    [The information appears at the conclusion of the hearing.]
    Mr. Burgess. Pursuant to committee rules, I remind members 
they have 10 business days to submit additional questions for 
the record and I ask the witnesses to submit their responses 
within 10 business days upon the receipt of those questions.
    Without objection, then the subcommittee is adjourned.
    [Whereupon, at 11:36 a.m., the subcommittee was adjourned.]
    [Material submitted for inclusion in the record follows:]

                 Prepared statement of Hon. Fred Upton

    As we enter a new budget season, I am pleased we are 
circling back to examine industry perspectives on the Consumer 
Product Safety Commission. I understand there were improvements 
in particular circumstances that the witnesses can tell us 
about, but I'm also interested in the witnesses' views on which 
issues to prioritize when evaluating the Commission's budget 
request.
    The scope of the Commission's jurisdiction in combination 
with its limited size and budget merits close attention to 
ensure that consumers' trust in this agency is not eroded 
because of activist agendas.
    I am interested in hearing from the witnesses today whose 
members engage on a regular basis with the Commission. There 
have been a number of recurring issues and we need to find a 
way to break the logjam and move forward.
    The voluntary standards process has been a success in 
covering much more ground than mandatory rulemakings by the 
Commission could have accomplished. What's more, the voluntary 
standards process proves how committed industry and the 
Commission are to making safe consumer products available in 
the U.S.
    At the risk of sounding like a broken record, I would also 
like an update on the Commission's activities to reduce third-
party testing burdens. There have been multiple bipartisan 
directives from Congress to help small businesses in this area, 
and they have not been met with substantial action from the 
Commission.
    The relationship between the Commission and industry is 
mutually beneficial and should be fostered to protect 
consumers. All relationships require work, and it is worth 
exploring how to improve the relationship here because of its 
impact on consumer safety--particularly for the safety of 
families in southwest Michigan.




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre></body></html>
